National Railroad Passenger Corporation
      Office of Inspector General




  Semiannual Report                                                                              Report # 43
         to the                                                                             October 1, 2010–
 United States Congress
                 Amtrak Office of Inspector General   I Semiannual Report to Congress I       March
                                                                                          October       31,
                                                                                                  1, 2010–    2011
                                                                                                           March 31, 2011   1
                   Vision
                   The Office of Inspector General (OIG) strives to provide Amtrak’s
                   employees, its customers, the public, and the Congress with the
                   highest quality service and programs through vigilance, timely
                   action, accuracy, and an overall commitment to excellence across
                   the broad range of OIG responsibilities.




                   Mission
                   The OIG conducts and supervises independent and objective
                   audits, inspections, evaluations, and investigations relating
                   to Amtrak programs and operations; promotes economy,
                   effectiveness, and efficiency within the company; prevents and
                   detects fraud, waste, and abuse in company programs and
                   operations; reviews security and safety policies and programs,
                   and reviews and makes recommendations regarding existing and
                   proposed legislation and regulations relating to Amtrak’s programs
                   and operations.




                                                                                                      cover photo: California Zephyr

2   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
Table of Contents


From the Inspector General 	                                                                3

OIG Profile 	                                                                               9

Amtrak Profile	                                                                           16

Significant Activities: Actions Underway to Strengthen OIG Operations 	 19

Significant Activities: Audits 	                                                          23

Significant Activities: Inspections and Evaluations	                                      31

Significant Activities: Investigations 	                                                  37

Performance Measures	                                                                     42

Appendixes 	                                                                              43

Reporting Requirements 	                                                                  50




         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   1
                                                                    Empire Builder at Stephen’s Pass, Montana




2   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                              From the Inspector General




                National Railroad Passenger Corporation
                      Office of Inspector General




I am pleased to present the Amtrak Office of Inspector General (OIG)
Semiannual Report to the United States Congress for the six months ending
March 31, 2011. Along with discussing significant OIG accomplishments in
audits, inspections and evaluations, and investigations during this period,
this report highlights ongoing action to strengthen OIG operations and make
progress toward becoming a model OIG.

With a staff that combines years of experience in the railroad industry along
with those having an extensive background in auditing and investigative
work, the Amtrak OIG is in a unique position to monitor Amtrak programs
with an eye toward best practices. This has given us a team with the ability
to assess Amtrak operations and offer well-reasoned recommendations
for improvement.

We are continuing to enhance our capability to perform effective independent
oversight and to foster mutually beneficial working relationships among OIG,
Amtrak management, the Congress, and other stakeholders. The quality and
quantity of our audits, evaluations, and investigations are growing: at present
we have several major audits/evaluations in progress, focusing on governance
and strategic asset management, Amtrak’s risk-management framework, its
process for handling employment background investigations, a follow-up
evaluation of mechanical maintenance operations, and on-time-performance
incentive payments, among others.


Significant Accomplishments

As stewards of public funds, we strive to ensure that monies are spent wisely,
and that appropriate value is received. During this reporting period, our audit
and evaluation units issued seven reports that identified over $17 million in




               10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                           3
    From the Inspector General




              questioned costs. Our investigative work into schemes involving health care
              fraud, theft, contract noncompliance, and employee attendance fraud resulted
              in two convictions and one indictment. In total, our Office of Investigations
              was responsible for bringing in more than $116,000 in fines, restitution, and
              cost savings.

              We continued to identify opportunities to reduce costs, improve management
              operations, and institute more efficient and effective business processes.
              For example:

              •	 	Our March 2011 evaluation of Amtrak’s Fiscal Year 2010 Fleet Strategy
                 examined the company’s plan to spend $23 billion over the next 30 years to
                 replace aging equipment and meet future ridership demand. While Amtrak
                 has done a commendable job in creating a comprehensive fleet strategy
                 that it has greatly needed, we identified seven areas in which Amtrak can
                 improve the strategy by conducting additional, more detailed analyses.
                 These areas include:

                 1.	 Determining future equipment requirements based on route-specific
                     ridership demand projections.
                 2.	 Increasing the use of multi-level cars.
                 3.	 Incorporating equipment-availability improvements.
                 4.	 Using a more sophisticated decision model to determine equipment’s
                     optimal economic life.
                 5.	 Identifying a business-plan-based approach for replacing and
                     enhancing the Acela Express fleet.
                 6.	 Revising the planned procurement approach to achieve lower unit-
                     cost pricing.
                 7.	 Integrating a systematic fleet planning process with other corporate
                     plans and activities.

                 Management agreed with all of these recommendations; the President
                 and CEO pointed out that Amtrak has begun addressing some of them
                 in its FY 2011 Fleet Strategy update, and plans to address the remaining
                 recommendations in future strategy updates. The company also began
                 recruiting for a fleet strategy manager.




                            10 G Street, NE, Suite 3W-300, Washington, DC 20002
4
                                                               From the Inspector General




•	 Our March 2011 evaluation of Amtrak’s Operation RedBlock Program
    reviewed the company’s progress in implementing recommendations from
    our 2008 report. RedBlock is a labor-developed drug and alcohol identifica-
    tion and education program. Our prior review found serious deficiencies
    in program leadership and oversight, and questioned whether the program
    should continue counseling services that go beyond the scope of its char-
    ter. The Federal Railroad Administration has also repeatedly expressed
    concerns that RedBlock is not operating effectively and that employees are
    not receiving proper support to deal with substance abuse problems.

    Our evaluation found that significant issues remain to ensure that Amtrak,
    its employees, passengers, and the public are protected from accidents due
    to alcohol or drug use.

	   We made five specific recommendations, that the President and CEO work
    with management and involved labor unions to ensure that the RedBlock
    executive steering committee

    •	 convenes on a regular basis, at least semiannually, to review program
       performance;

    •	 establishes a process and timeline for the development of meaningful
       performance goals;

    •	 implements processes to reliably report information related to Red-
       Block activities, while protecting confidential data;

    •	 establishes guidelines and consequences, and ensure that employees
       are appropriately referred to and properly evaluated by certified, cre-
       dentialed counselors within the Employee Assistance Program; and

    •	 fifth, we recommended that the Critical Assistance and Response for
       Employees, Peer Counselor, and Union Member Assistance Coordina-
       tor programs be reassigned to the Employee Assistance Program unit.

	   Amtrak’s President and CEO agreed with the recommendations and has
    become personally involved in working with labor to implement the
    needed changes.




               10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                            5
    From the Inspector General




              Significant Actions Taken to Strengthen OIG Operations

              A critical element for ensuring that we can effectively perform the
              independent role mandated by the Inspector General Act of 1978 is a
              professional and effective working relationship between the OIG and Amtrak
              management. We have implemented a relationship policy that meets the letter
              and spirit of the IG Act, withdrawn our office from performing management
              functions, and built a constructive working relationship with Amtrak
              management.

              During this reporting period, the OIG has completed or initiated several
              additional actions to strengthen our operations and improve operating
              efficiency and effectiveness. Our goal is to build a culture of continuous
              improvement.

              In the Human Resources area, we have, among other items,

              •	 filled two Deputy Assistant Inspector General for Investigations positions
                 (headquarters and field operations);

              •	 filled a Senior Director for Quality Assurance and Internal Affairs position,
                 reporting to the Deputy Inspector General; and

              •	 created and are in the process of filling two Senior Director positions to
                 support a restructuring of the Office of Inspections and Evaluations.

              Organizationally, we have

              •	 begun to review the structure and operational effectiveness and efficiency
                 of the Office of Audits;

              •	 begun the process of hiring new employees in the Office of Inspections
                 and Evaluations to replace recent retirees and other departing staff, to
                 bring us back to full strength;




                             10 G Street, NE, Suite 3W-300, Washington, DC 20002
6
                                                              From the Inspector General




•	 begun a restructuring of the Office of Investigations;

•	 conducted an initial assessment and initiated a detailed organizational
   review of the Office of Management and Policy; and

•	 developed implementation plans to address recommendations from the
   National Academy of Public Administration (NAPA), which conducted
   an organizational assessment of our office and made 41 recommendations
   focusing on eight areas in which we can enhance our operations.

In addition, the U.S. Postal Service’s Office of Inspector General is now
conducting a review to gauge our independence from Amtrak as required by
Public Law 111–117, the Consolidated Appropriations Act, 2010.

I look forward to our continued effective working relationship with the
Chairman, Board members, President and CEO, and executives at Amtrak;
along with the House and Senate authorization, oversight, and appropriations
committees, as we work to meet the challenges facing OIG, Amtrak, the train-
riding public, and taxpayers.




Theodore (Ted) Alves
Inspector General




               10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                           7
                                                                                              Penn Station Control Center, New York




8   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                 OIG Profile




OIG Profile
Vision, Mission, and Authority
Vision
The Office of Inspector General (OIG) strives to provide Amtrak’s employees,
its customers, the public, and the Congress with the highest quality service and
programs through vigilance, timely action, accuracy, and an overall commitment
to excellence across the broad range of OIG responsibilities.

Mission
The OIG will conduct and supervise independent and objective audits,
inspections, evaluations, and investigations relating to Amtrak’s programs and
operations; promote economy, effectiveness, and efficiency within Amtrak;
prevent and detect fraud, waste, and abuse in Amtrak’s programs and operations;
review security and safety policies and programs; and review and make
recommendations regarding existing and proposed legislation and regulations
relating to Amtrak’s programs and operations.

Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3), as
amended in1988 (P.L. 100-504), established the Office of Inspector General for
Amtrak to consolidate existing investigative and audit resources into independent
organizations headed by an Inspector General (IG) to promote economy,
efficiency, and effectiveness; and detect and prevent fraud, waste, and abuse.
Subsequently, the Inspector General Reform Act of 2008 (P. L. 110-409) amended
and strengthened the authority of the Offices of Inspectors General.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   9
OIG Profile




                                 Guiding Principles and Values
                                 OIG principles and values are important because they form the building blocks
                                 used to accomplish its mission and conduct its day-to-day operations:


                                                               High Quality,
                                                                Relevance,
                                                                Timeliness




                                                                           Respecting and
                                                  Innovation              Developing People




                                                               Independence
                                    Professionalism            and Objectivity          Customer Service




                                 Amtrak’s Office of Inspector General will:

                                 •	 High Quality, Relevance, Timeliness—Provide valuable and timely service.
                                    Work products are high quality, relevant, timely, add value, and are responsive
                                    to the needs of Amtrak, and its stakeholders.

                                 •	 Innovation—Be innovative, question existing procedures, and suggest
                                    improvements. New ideas and creativity are fundamental to continued
                                    growth, development, and problem solving.

                                 •	 Respecting and Developing People—Create an environment that supports
                                    gathering, sharing, and retaining knowledge; fosters treating everyone fairly
                                    and with mutual respect through words and actions; ensures professional
                                    growth; and values the diverse backgrounds, skills, and perspectives of
                                    employees.

                                 •	 Professionalism—Be committed to our professional standards and foster
                                    relationships with stakeholders that rely on communication and cooperation.
                                    Relationships with program managers are based on a shared commitment to
                                    improving program operations and effectiveness.




10   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                OIG Profile




•	 Independence and Objectivity—Be committed to carrying out its mission
   with objectivity and independence, both in appearance and fact. Conflicts,
   improper influence, or other impediments do not interfere with our work.

•	 Customer Service—Strive to be aware of the needs of stakeholders and
   work with Amtrak’s chairman, the Board of Directors, and the Congress to
   improve program management.




                                                                                     Acela Express at New Haven, Connecticut


                       Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   11
                                                                                                                                       Photo: Jason Berg




                                                                                      Empire Builder at the Flathead Tunnel, Montana



12   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
Office of Inspector General Organization

                                  Theodore (Ted) Alves
                                           Inspector
                                            General



                                    Thomas J. Howard
                                           Deputy
                                      Inspector General




    David R. Warren                  Calvin E. Evans                       Adrienne R. Rish
 Assistant Inspector General      Assistant Inspector General         Assistant Inspector General
            Audits                 Inspections & Evaluations                 Investigations




              Colin C. Carriere                        Vacant                       E. Bret Coulson
                     General                 Assistant Inspector General           Congressional Affairs &
                     Counsel                   Management and Policy                  Public Relations



The OIG headquarters is based in Washington, D.C., with seven field offices
located in Baltimore, Boston, Chicago, Los Angeles, New York, Philadelphia, and
Wilmington, Delaware.

The Inspector General provides policy direction and leadership for Amtrak’s
Office of Inspector General and serves as an independent voice to the Board
of Directors and the Congress by identifying opportunities and promoting
solutions for improving the company’s performance and economy and efficiency
of operations, while preventing and detecting fraud, waste, and abuse. The
Deputy Inspector General assists the Inspector General in development and
implementation of the OIG’s diverse audit, inspection, evaluation, investigative,
legal, and support operations.




                               Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   13
OIG Profile




                                 Audits
                                 The Audit group conducts performance and financial audits across the spectrum
                                 of Amtrak’s support and operational activities. It produces reports on those
                                 activities that are aimed at improving Amtrak’s economy, efficiency, and
                                 effectiveness, while seeking to detect and prevent fraud, waste, and abuse.
                                 The audit activities are focused on issues related to governance, to include
                                 financial management, acquisition and procurement, information technology,
                                 human capital and American Recovery and Reinvestment Act-related activities.
                                 The group conducts its work in accordance with generally accepted government
                                 auditing standards.

The Audit group conducts         Inspections and Evaluations
performance and financial        The Office of Inspections and Evaluations conducts evaluations of Amtrak
audits aimed at improving        programs and operations to identify opportunities to improve cost efficiency and
Amtrak’s economy, effi-          effectiveness, and the overall quality of service delivery throughout Amtrak.
ciency, and effectiveness;
Inspections and Evaluations
                                 Investigations
                                 The Office of Investigations investigates allegations of fraud, waste, abuse,
also identifies opportuni-
                                 and misconduct that could affect Amtrak’s programs, operations, assets, and
ties to improve the overall
                                 other resources. Investigative findings are referred to the Department of Justice
quality of Amtrak service
                                 for criminal prosecution or civil litigation, or to Amtrak management for
delivery. Investigations         administrative action. The office develops recommendations to reduce Amtrak’s
likewise looks into alleged      vulnerability to criminal activity.
fraud, waste, abuse, and
misconduct that could
affect Amtrak’s programs,
assets, and resources.




                                 Crescent at the James River, Lynchburg, Virginia




14   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                     OIG Profile




Empire Builder at Glacier National Park, Montana



Management and Policy
The Office of Management and Policy provides financial management, procurement,
human capital management, administrative, information technology, and communications
expertise to support OIG operations.

Congressional Affairs & Public Relations
The Office of Congressional Affairs & Public Relations serves as the OIG liaison to
Congress, other government entities, and the public, and conducts OIG outreach.




                            Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   15
OIG Profile




                                 Amtrak Profile
                                 The National Railroad Passenger Corporation—Amtrak—is incorporated
                                 under the District of Columbia Business Corporation Act (D.C. Code § 29-301
                                 et seq.) in accordance with the provisions of the Rail Passenger Service Act of
                                 1970 (P. L. 91-518). Under the provisions of the Passenger Rail Investment and
                                 Improvement Act of 2008 (P. L. 110-432; 49 U.S.C. § 24302), Amtrak’s Board of
                                 Directors was reorganized and expanded to nine members.

                                 The company is operated and managed as a for-profit corporation providing
                                 intercity rail passenger transportation as its principal business. Congress
                                 created Amtrak in 1970 to take over, and independently operate, the nation’s
Since 2000, ridership            intercity rail passenger services. Prior to this, America’s private freight
has grown by more than           companies ran passenger rail as required by federal law. Those companies
36 percent. In March             reported that they had operated their passenger rail services without profit
2011, Amtrak recorded            for a decade or more. With this in mind, when Amtrak began service on May 1,
its 17th straight month          1971, more than half of the rail passenger routes then operated by the freight
of increased passenger           railroad companies were eliminated.
traffic.

                                 Amtrak Ridership Continues Upward Trend as 40th Anniversary
                                 Approaches

                                 As Amtrak reaches its 40th anniversary on May 1 of this year, ridership has
                                 continued to increase steadily: in March 2011, Amtrak recorded its 17th
                                 straight month of increased passenger traffic (beginning in November 2009).
                                 Since 2000, ridership has grown by more than 36 percent.

                                 Amtrak has requested some $2.2 billion in federal funding for FY 2012.




16   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                   OIG Profile




How It Works: Ownership and Contracting

Amtrak owns the right-of-way of more than 363 route miles in the Northeast
Corridor (NEC, which includes Washington, D.C.–New York City–Boston;
Philadelphia–Harrisburg; and New Haven, Conn.–Springfield, Mass.), as well
as 97 miles in Michigan. Amtrak owns 105 station facilities, and is responsible
for the upkeep and maintenance of an additional 181 station facilities and 411
platforms. Amtrak owns 17 tunnels and 1,186 bridges.

Amtrak owns most of the maintenance and repair facilities for its fleet of
about 2,600 cars and locomotives. Outside of the NEC, Amtrak contracts with
freight railroads for the right to operate over their tracks. The host railroads
are responsible for the condition of their tracks and for the coordination of all
railroad traffic.




Maryland Area Regional Commuter (MARC) at Washington, D.C.

                          Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   17
page header




                                                                                            Empire Builder at Williston, North Dakota




18   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                         Significant Activities | Actions Underway to Strengthen OIG Operations




Significant Activities:
Actions Underway to Strengthen OIG Operations

A professional, independent, and effective working relationship between OIG

and Amtrak management is critical to our ability to perform the independent

oversight envisioned in the Inspector General Act of 1978. Our relationship

policy with management meets the letter and the spirit of the IG Act.

As a consequence, our office no longer performs management functions that
                                                                                                     As part of our quest to
should be handled by Amtrak itself, and our independent working relation-                            become a model OIG,
                                                                                                     we hired several more
ships with Amtrak supervisors and managers continue to be excellent.
                                                                                                     auditing professionals
                                                                                                     with many years of
During this reporting period, we have completed or initiated several actions to                      experience.
strengthen our office and ensure that we operate as efficiently and effectively as
possible. Among them:

•	 Human Capital Management. As part of our quest to become a model OIG,
   we hired several key professionals with many years of experience:

   ­   Senior Director for Quality Assurance and Internal Affairs. The incumbent
       brings 23 years of management, logistics, staff development, as well as
       auditing experience within the IG community, serving for the past 3 years
       in Baghdad as Deputy Assistant IG for Audit—Iraq, with the Special IG
       for Iraq Reconstruction (SIGIR). This followed some 20 years with the
       Department of Defense IG.

   ­   Principal Communications Officer. The incumbent’s 37-year federal career
       includes 21 years with the Government Accountability Office (GAO) as
       a communications analyst and, since 2005, similar positions with the
       Offices of Inspector General at the Departments of Transportation and
       Commerce.

   ­   Deputy Assistant Inspector General for Investigations—Headquarters
       Operations. The incumbent has a rich and varied background in law
       enforcement and fraud investigations of all types, including computer and


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   19
Significant Activities | Actions Underway to Strengthen OIG Operations




                                           financial crimes. He has served with Offices of Inspector General at the
                                           Departments of Defense, Commerce, Agriculture, and the Special Inspec-
                                           tor General for Iraq Reconstruction.

                                      ­    Deputy Assistant Inspector General for Investigations—Field Operations.
                                           The incumbent brings 20 years of experience in law enforcement from
                                           Offices of Inspector General at the U.S. Postal Service—where, for the
                                           past 8 years, he was Deputy Assistant IG for Investigations and Mission
                                           Support— and the Department of Transportation. His background
                                           includes organizational development and leadership, along with procure-
                                           ment fraud and financial crimes.

                                 •	 NAPA. As detailed in our last Semiannual Report, the National Academy of
                                    Public Administration (NAPA) conducted an organizational assessment of
                                    our office and made 41 recommendations focusing on eight areas in which we
                                    can enhance our operations. We have developed an implementation plan to
                                    address recommendations from NAPA’s report.




                                                                                    California Zephyr at Glenwood Springs, Colorado

20   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                        Significant Activities | Actions Underway to Strengthen OIG Operations




•	 Writing Training. All audit and
   inspection & evaluation staff
   attended a 3-day training course
   in developing and writing audit
   reports. Taught by two well-
   respected writing instructors
   in the auditing community with
   decades of experience, along
   with our own newly-hired
   Principal Communications
   Officer, the course explored                                                             San Joaquins near Merced, California

   in detail how to write reports for busy decision makers using clear and
   persuasive language while effectively marshaling evidence.

•	 Office of Management and Policy. We conducted an initial assessment
   and initiated a detailed organizational review of the Office of Management
   and Policy.

•	 Office of Audits. We have begun discussions to review the structure and
   operational effectiveness and efficiency of the Office of Audits.


Ongoing Actions                                                                                     All Audit and Inspection &
                                                                                                    Evaluation staff attended
•	 Postal IG Review. This review is an evaluation by the USPS Inspector General
                                                                                                    a 3-day training course
   to gauge our independence from Amtrak. The Fiscal Year 2010 Consolidated
                                                                                                    in developing and writing
   Appropriations Act directed that a member of the Council of Inspectors Gen-
                                                                                                    audit reports, exploring
   eral for Integrity and Efficiency (CIGIE) review our March 2010 relationship
                                                                                                    in detail how to write for
   policy with Amtrak management. This was done by the Inspector General of
   the Farm Credit Administration, who determined that it was consistent with                       busy decision makers
   the letter and spirit of the IG Act of 1978, as amended. The Appropriations                      using clear and persuasive
   Act further called for another CIGIE member to evaluate—a year later—our                         language while effectively
   operational independence. This is the review being carried out by the Postal                     marshaling evidence.
   Service Inspector General.

•	 Recruitment. We are recruiting for several critical positions, among them an
   Analyst/Referencer to support Quality Assurance and Internal Affairs; two
   Senior Directors, two Principal Operations Analysts, and two Lead Evaluators
   for Inspections and Evaluations; and a Special Agent-in-Charge and Criminal
   Investigator for Investigations.




                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   21
                                                                                              Capitol Limited at Mance, Pennsylvania




22   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                      Significant Activities | Audits




Significant Activities:
Audits

During this reporting period, the Office of Audits issued five reports—three

dealing with incurred costs, one discussing price negotiations on an

acquisition contract, and one reviewing design controls in Amtrak’s Strategic

Asset Management program.



Audits Issued This Reporting Period

These are summaries of audit reports issued between October 1, 2010 and
March 31, 2011. The full reports may be accessed through our website:
www.amtrakoig.gov.

Questionable Contract Language Related to Interest Payable Under
Kiewit Contract C069-93228 / Sounder Preventive Maintenance Track
Replacement and Related Improvements, Seattle, WA /
and Kiewit Contract C069-06834 South End Track and Related
Improvements, Seattle, WA
(Audit Report 508-2009, December 2, 2010)
Amtrak awarded two cost-reimbursable-plus-fee contracts up to a combined
guaranteed maximum price of over $11 million to perform work related to track
replacement and related improvements. Our audit objective was to determine
the accuracy and acceptability of costs invoiced by the contractor, Kiewit. Both
contracts allow Amtrak to withhold 10 percent of progress payments made to
Kiewit on a cost-incurred basis. This retained amount is to be withheld until the
work has been satisfactorily completed and OIG audit findings, if any, have
been resolved.

We identified questionable “retainage” language in both contracts. It states that
if the retainage is not paid within 90 calendar days following proper invoicing by
the contractor and receipt by Amtrak, both parties “shall agree to seek a mutually
acceptable means of compensating the contractor for the ‘time value of money’
associated with extended and/or unwarranted withholding of retainage from
the contractor without suitable cause.” One of the mutually acceptable means


                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   23
Significant Activities | Audits




                                 identified in the contract allows the contractor to be paid interest on retainage
                                 not later reduced by audit findings.

                                 It is a common construction contracting practice for the owner to withhold a
                                 certain percentage of compensation from the contractor as a means of motivating
                                 the contractor to complete the work in a timely and satisfactory manner. The
                                 contract retainage language may offset the benefits of withholding. The 90
                                 calendar days time frame places a burden on Amtrak that may result in hasty
                                 management decisions. The unfavorable retainage language may also result in
                                 unnecessary costs to Amtrak.

                                 The audit also noted that the inclusion of this language in only Kiewit contracts
                                 presents an appearance that Amtrak accorded preferential treatment to this
Procurement officials            particular contractor. Amtrak procurement officials indicated that the language
                                 was included only in the two Kiewit contracts to induce the contractor to do
indicated that the
                                 business with Amtrak, because the Seattle Facility Infrastructure Improvement
language was included
                                 project underwent a number of changes as a result of Amtrak’s funding
only in the two contracts
                                 constraints.
to induce the contractor
to do business with              We further noted that the interest payment clause could impose limits on our
Amtrak.                          responsibilities and/or place unreasonable restriction on the time needed
                                 to complete an audit or issue the report, which could impair the auditor’s
                                 independence.

                                 We recommended that Amtrak

                                 •	 exclude any language that allows paying interest to a contractor on a retain-
                                    age basis and, if such language is included, formally justify that it is in Am-
                                    trak’s best interest and does not impair auditor independence;

                                 •	 review all existing contracts for similar retainage language; and

                                 •	 avoid any contract language that could impair auditor responsibilities.

                                 Amtrak agreed with our recommendations and has already issued guidance to its
                                 procurement personnel reminding them of the need to avoid contract language
                                 that could impair the independence and objectivity of the OIG and other external
                                 auditors.




24   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                       Significant Activities | Audits




Incurred-Cost Audit: Amtrak’s Design/Build Improvements Contract Audit
Identified a Total of $926,276 in Questioned and Unsupported Costs
(Audit Report 503-2009, December 13, 2010)
Questioned Costs:	 $ 17,694
Unsupported Costs:	 908,582

Amtrak awarded a cost-reimbursable-plus-fee contract up to a guaranteed
maximum price of over $2 million for work related to design/build improvements.
Our objective was to determine the accuracy and acceptability of costs invoiced
by the contractor.

We found that the questioned costs were primarily the result of the contractor’s
billing of relocation, insurance, and general and administrative costs that were
not allowed. Further, the contractor did not provide adequate support for salaried
staff and staff vehicle costs invoiced to Amtrak.

We also found, however, that Amtrak’s Department of Procurement and Materials
Management did not ensure before payment that all costs invoiced by the
contractor were in compliance with contract provisions and/or were adequately
and appropriately supported.

Our draft report recommended that Amtrak take steps to recover overpayments
and remind staff to ensure that costs are adequately supported before paying
vendor invoices. Amtrak disagreed with most of the questioned and unsupported
costs and with the recommendation. Management’s response did not,
however, contain sufficient facts or rationale to rebut the findings. In our view,
management’s response indicates a lack of appropriate attention to controls over
payments.

Given this lack of attention, our final report recommended that Amtrak’s Chief
Financial Officer

•	 direct staff to initiate negotiations with the contractor to recover the ques-
   tioned and unsupported costs;

•	 remind staff to ensure that all costs invoiced to Amtrak are in accordance
   with contract provisions and are adequately supported before paying vendor
   invoices; and

•	 review the adequacy of internal controls over the vendor invoice process,
   including the control environment, and implement improvements as needed.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   25
Significant Activities | Audits




                                 As of mid-April, Amtrak was drafting its response and estimated that it would be
                                 provided to us before May 1.


                                 Incurred-Cost Audit: Amtrak’s Track Replacement and Related
                                 Improvements Contracts Audit Identified a Total of $351,205 in
                                 Questioned and Unsupported Costs
                                 (Audit Report 504-2009, December 22, 2010)
                                 Questioned Costs:	      $221,925
                                 Unsupported Costs: 	     129,280

                                 Amtrak awarded two cost-reimbursable-plus-fee contracts up to a combined
                                 guaranteed maximum price of over $11 million to for work related to track
                                 replacement and related improvements. Our objective was to determine the
                                 accuracy and acceptability of costs invoiced by the contractor.

                                 We found that the questioned costs were primarily the result of overstated
                                 labor and labor add-ons, such as benefits, equipment costs, and certain other
                                 subcontractor costs not in accordance with the contract. We found that the
                                 Contractor did not provide adequate support for business managers’ labor and
                                 labor add-ons, and for related equipment costs invoiced to Amtrak.

                                 We also found that Amtrak’s Department of Procurement and Materials
                                 Management did not ensure that all invoiced costs were in compliance with
                                 contract provisions. Amtrak’s procurement office and project manager did
                                 not ensure that the contractor’s invoices were adequately and appropriately
                                 supported before they were paid.

                                 Our draft report recommended that Amtrak take steps to recover overpayments
                                 and remind staff to ensure that costs are adequately supported before paying
                                 vendor invoices. Management’s response disagreed with most of the questioned
                                 and unsupported costs and with our recommendation. It did not, however,
                                 contain sufficient facts or rationale to rebut the validity of our findings. In our
                                 view, management’s response indicates a lack of appropriate attention to controls
                                 over payments.

                                 Our final report recommended that Amtrak’s Chief Financial Officer direct
                                 staff to initiate negotiations with the contractor to recover the questioned
                                 and unsupported costs we identified, and to remind staff to ensure that all
                                 costs invoiced to Amtrak are in accordance with contract provisions and are
                                 adequately supported before paying vendor invoices.




26   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                       Significant Activities | Audits




As of mid-April, Amtrak was drafting its response and estimated that it would be
provided to us before May 1.


Price-Proposal Audit: Amtrak Should Negotiate a Price Adjustment to a
Major Acquisition Contract
(Audit Report 219-2010, January 12, 2011)
(Final report contains contractor-proprietary information.)

Amtrak awarded an acquisition contract for a sum not to exceed nearly $500
million. Given this significant amount, we audited the contractor’s price proposal.
Our objectives were to determine the accuracy and completeness of the data, the                      We found gaps in the design
accuracy of the contractor’s internal controls as they affected the price proposal,                  of the controls that do not
and whether the contractor’s estimating system was applied in a reasonable                           fully mitigate the financial
manner.                                                                                              and operational risks,
                                                                                                     gaps that put Amtrak at
We found that the contractor did not reasonably apply its estimating system and                      risk of inaccurate financial
identified more than $16.6 million in unreasonable costs; further, the contractor                    reporting, vulnerability
duplicated profit, misapplied labor and training rates, overstated costs, and                        to fraud, and inefficient
included warranty and risk costs we found to be unreasonable.                                        business operations.

We recommended that Amtrak negotiate a price adjustment. Amtrak responded
that it will use the information contained in this report to assess any future
modifications to the contract.


Strategic Asset Management Program Controls Design Is Generally Sound,
But Improvements Can Be Made
(Audit Report 105-2010, January 14, 2011)

Amtrak’s Strategic Asset Management (SAM) program is estimated to cost as
much as $380 million. Its goal is to transform key business operations such as
finance and logistics; in so doing, it will replace or enhance many existing manual
and automated systems. Given SAM’s cost and expected impact on business
operations, we reviewed its internal controls design to determine whether it
adequately identified and mitigated risks.

The design of the automated controls to mitigate financial risk in the first SAM
segment to be implemented is generally sound. However, we found gaps in the
design of the controls that do not fully mitigate the financial and operational
risks. These gaps put Amtrak at risk of not fully realizing SAM’s potential benefits.
In particular, the lack of adequate controls can lead to inaccurate financial


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   27
Significant Activities | Audits




                                 reporting, vulnerability to fraud, and inefficient business operations.

                                 For example, we found the following areas in which improvements could
                                 be made:

                                 •	 Journal entries are to be processed manually, leaving the process vulnerable
                                    to error and rework.

                                 •	 Controls were not documented to avoid the risk of unauthorized purchases.

During the next 6 months,        •	 Controls over certain physical inventory items were not in place, leaving the
the Office of Audits                items vulnerable to undetected loss or theft.
expects to complete work
on determining whether           We also found that the scope of design controls work was limited to automated
Amtrak’s risk manage-            finance and materials management business controls.
ment framework and
processes are effective in       We recommended that Amtrak complete certain automated control design tasks
                                 before the April 2011 implementation, and expand the scope of the control design
identifying and controlling
                                 process. Amtrak agreed with our recommendations, and has been working to
financial, operational, and
                                 implement them.
regulatory risks.


                                 Ongoing Audits
                                 During the next 6 months, the Office of Audits expects to complete work on the
                                 following:

                                 •	 A review to determine whether Amtrak’s risk management framework and
                                    processes are effective in identifying and controlling financial, operational,
                                    and regulatory risks, and are consistent with private and public best prac-
                                    tices.

                                 •	 An audit of Amtrak’s management of employment background investigations,
                                    including a review of policies, processes, and practices used to conduct new
                                    employee background investigations, with an emphasis on the use of that
                                    information in the hiring process; and oversight of contractors performing
                                    background investigations, with an emphasis on oversight of contractors’
                                    timeliness in providing investigation reports.

                                 •	 An audit of Amtrak’s planning, implementation approach, and program
                                    management for the Strategic Asset Management (SAM) program. This is
                                    Amtrak’s most significant information technology program to improve the


28   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                      Significant Activities | Audits




                                                           Acela Express at Washington, D.C.

   economy, effectiveness, and efficiency of its support and business operations,
   and is estimated to have an implementation cost of up to $380 million.

•	 An audit of the adequacy of accounting practices related to financial reporting
   for inventory purchases.

•	 Audits of invoices billed to Amtrak for performance payments to other rail-
   roads. These invoices allowed over $60 million in awards payments. Similar
   past audits have identified significant overpayments.

•	 A review of 40 American Recovery and Reinvestment Act of 2009 (ARRA)-
   funded projects expected to cost about $465 million. These projects are being
   implemented by a contractor on behalf of Amtrak. The audit will address the
   adequacy of Amtrak’s program management oversight and status of project
   implementation, as well as obstacles encountered in attempting to complete
   the projects by the ARRA deadline of February 17, 2011.

•	 An audit of 35 police and security ARRA-funded projects expected to cost $95
   million. The audit will address the adequacy of Amtrak’s program manage-
   ment and the status of project implementation, as well as obstacles to com-
   pleting the projects by the February 2011 ARRA deadline.

•	 A review of Amtrak’s progress in complying with the Americans with Disabili-
   ties Act. The audit will address what has been and remains to be done, as well
   as barriers that must be overcome to achieve further progress.


                        Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   29
                                                                                                            Crescent in Virginia




30   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                              Significant Activities | Inspections and Evaluations




Significant Activities:
Inspections and Evaluations

During this reporting period, the Office of Inspections and Evaluations issued

two reports, a review of Operation RedBlock—Amtrak’s drug-and-alcohol

peer-counseling program, and a review of Amtrak’s Fleet Strategy.


Evaluations Issued This Reporting Period
These are summaries of the inspection and evaluation reports issued between
October 1, 2010 and March 31, 2011. The full reports may be accessed through
our website: www.amtrakoig.gov.

Operation RedBlock: Actions Needed to Improve Program Effectiveness                                  We performed a follow-up
(Evaluation Report E-11-01, March 15, 2011)                                                          evaluation to determine
                                                                                                     whether RedBlock
Operation RedBlock is a labor-developed, management-supported program to                             management was using the
promote the awareness and education of drug use in the workplace through                             program to bypass federally-
union-led volunteer-prevention committees. We initially issued a report in                           mandated drug and alcohol
March 2008 identifying significant deficiencies in the program and made 14
                                                                                                     requirements and standards.
recommendations to improve its operational and organizational efficiency
and effectiveness. Amtrak disagreed with many of the recommendations,
and asserted that the program was operating effectively (but did not provide
additional information). In July 2009 the Federal Railroad Association (FRA)
conducted an audit of Amtrak’s compliance with its drug and alcohol regulations,
including the RedBlock program, and expressed significant concerns with how
union employees are processed through RedBlock, including whether RedBlock
management was using the program to bypass federally-mandated drug and
alcohol requirements and standards. We then performed a follow-up evaluation
to determine the progress made in implementing our previous recommendations,
and whether concerns raised were addressed.

We identified five issues surrounding RedBlock’s operational efficiency and
effectiveness:




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   31
Significant Activities | Inspections and Evaluations




                                 •	 The RedBlock Executive Steering Committee (ESC) had not met for over a
                                    year and had failed to formally meet at least twice a year, as previously com-
                                    mitted in response to our 2008 report.

                                 •	 The RedBlock ESC had still not established meaningful performance goals for
                                    program self-measurement and improvement.

                                 •	 The employee mark-off data were not being tracked or reported to ESC that
                                    would allow Amtrak and the Committee to identify trends and issues around
                                    employee absences from work due to drug and alcohol use. FRA also ques-
                                    tioned the reliability of the RedBlock data.

                                 •	 RedBlock referral practices did not fully support the long-term rehabilitative
                                    interest of employees (mark-offs that should have been referred to Amtrak’s
                                    Employee Assistance Program [EAP] for evaluation) and may not have
                                    satisfied FRA’s requirement that employees with substance abuse problems
                                    be identified and treated.

                                 •	 RedBlock continued to inappropriately house important employee
                                    counseling-type programs that were not organizationally aligned to provide
                                    the appropriate resources and support to employees.

                                 We recommended that the President and CEO direct the Vice President for
                                 Human Resources, Labor Administration, and Diversity Initiatives to work with
                                 management and the involved labor unions to ensure that

                                 1. 	 the RedBlock ESC meets on a regular basis, at least semiannually, to review
                                      program performance and provide oversight and direction to improve
                                      program operations;

                                 2. 	 the RedBlock ESC establishes a process and timeline for the development of
                                      meaningful performance goals that can be used to measure the effectiveness
                                      of the program and compliance with federal regulations;

                                 3. 	 the RedBlock ESC implement processes to report reliable and detailed
                                      information related to RedBlock activities, including mark-offs and multiple
                                      mark-offs , by craft, time period, and location, while also ensuring that
                                      personal and confidential information is protected from release;

                                 4. 	 the RedBlock ESC establishes mark-off guidelines and consequences, tracks
                                      peer-counselor interactions with and referrals of employees, and ensures that
                                      employees are appropriately referred to and properly evaluated by a certified


32   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                       Significant Activities | Inspections and Evaluations




   Substance Abuse Professional-credentialed counselor within the EAP unit.
   Further, employees with multiple RedBlock mark-offs should be required to
   contact Amtrak’s EAP; and,

5.	 the Critical Assistance and Response for Employee, the Peer Counselor, and
    the Union Member Assistance Coordinator programs be reassigned to the
    EAP department.

Management agreed with our findings and recommendations and committed
to meet with the RedBlock ESC prior to May 31, 2011, agree to a firm deadline
for implementing two of the recommendations, and provide a timeline for full
implementation of the other three recommendations by June 7, 2011.
                                                                                                      During the next 6 months,
                                                                                                      the Office of Inspections &
We concurred with management’s approach to work with the RedBlock ESC
                                                                                                      Evaluations will continue
and also commended the company for taking additional actions beyond our
                                                                                                      to work on a follow-up
recommendations to further improve the RedBlock program, as well as the
President and CEO’s personal commitment to the RedBlock program and his                               evaluation of Amtrak’s
proactive engagement with the ESC labor members.                                                      mechanical maintenance
                                                                                                      operations, examining
                                                                                                      progress toward the
Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level                               adoption of Reliability-
Plan That Needs Deeper Analysis and Planning Integration                                              Centered Maintenance.
(Evaluation Report E-11-02, March 31, 2011)

The FY 2010 Transportation, Housing and Urban Development and Related
Agencies Appropriation Act mandated that Amtrak prepare a comprehensive
plan that provides details and time frames for the maintenance, refurbishment,
replacement, and expansion of Amtrak’s rolling stock fleet. In February 2010,
as part of its FY 2011 Grant and Legislative Request, Amtrak published a fleet
strategy outlining the need to spend $23 billion over the next 30 years to replace
aging equipment and to provide the fleet necessary to meet future ridership
demand. In May 2010, the former Ranking Member of the Senate Appropriations
Committee, Subcommittee on Transportation, Housing and Urban Development,
and Related Agencies, requested that we conduct a comprehensive review of the
strategy.

Our objective was to assess whether the critical data and assumptions that have
a material impact on the equipment and financial resource estimates contained in
the fleet strategy are reasonable and valid. We briefed Amtrak’s senior executives
on our findings and recommendations on January 11, 2011.




                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   33
Significant Activities | Inspections and Evaluations




                                 Amtrak has done a commendable job of using a holistic approach to create
                                 a comprehensive fleet strategy that it has greatly needed. Its approach is a
                                 reasonable first step and may be appropriate for determining a high-level estimate
                                 of future equipment needs. However, our evaluation identified seven areas where
                                 Amtrak can significantly improve the strategy by conducting additional and more
                                 detailed analyses.

                                 These areas for improvements include:

                                 1.	 Determining the future rolling stock requirements based on route-
                                     specific ridership demand projections: The fleet strategy uses a simplified
                                     growth assumption of 2 percent per year on its existing car fleet. We have
                                     recommended that Amtrak follow a route-specific approach that is based
                                     on future ridership projections and considers current load factors and train
                                     consist alternatives.

                                 2.	 Increasing the use of multi-level cars: Multi-level cars provide more space
                                     at relatively lower procurement and operating costs. Amtrak can reduce its
                                     capital investments by $174 million to $679 million (depending on the amount
                                     of luggage space provided in the cars) if it replaced all of its single-level cars
                                     with a seat-equivalent number of multi-level cars.

                                 3.	 Incorporating improved equipment availabilities: The fleet strategy
                                     does not incorporate equipment availability improvements. If Amtrak achieves
                                     the availability targets presented in its Five-Year Financial Plan, it could
                                     reduce its capital investments for equipment procurements and overhauls by
                                     $520 million. This could be nearly doubled if Amtrak could further improve
                                     the availability of its equipment to the levels achieved by some of the better
                                     European operators.

                                 4.	 Determining the equipment’s optimal economic life: Amtrak uses a time-
                                     based criterion to plan rolling stock retirements. Our benchmarking shows
                                     that European railroads keep their rolling stock in service considerably longer
                                     and base their replacement decisions on strategic, operational, and financial
                                     factors. We recommend that Amtrak develop a more sophisticated decision
                                     model based on similar criteria. If Amtrak were able to keep its equipment
                                     in service, for example, 10 years longer than assumed in the Fleet Strategy, it
                                     could reduce its capital investment requirements by $1.6 billion over the 30-
                                     year planning period.

                                 5.	 Developing a business plan-based approach for replacing and
                                     enhancing the Acela Express fleet: Although the Acela Express service


34   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                       Significant Activities | Inspections and Evaluations




  is one of Amtrak’s main revenue drivers, the fleet strategy does not provide
  a clear and well-supported plan for the replacement and enhancement of
  the Acela fleet. Amtrak should identify a clear strategic focus for this high-
  speed rail service and develop a plan based on an operational and financial
  assessment of the relevant alternatives.

6.	 Using a procurement approach aimed at achieving lower unit prices:
    The fleet strategy’s procurement approach plans for relatively small order
    quantities and annual delivery rates that may result in higher unit costs. We
    recommend that Amtrak use a procurement approach that results in the most
    cost-effective use of its funds. For each percentage that Amtrak could lower
    its equipment procurement prices, the capital funding requirements could be
    reduced by $140 million.

7.	 Implementing a systematic fleet planning process integrated with
    other corporate plans and activities: The fleet strategy was not developed
    as part of a systematic process integrated into a corporate planning process.
    We recommend that for future updates to the Strategy Amtrak use a more
    systemic planning process that is integrated with Amtrak’s overall strategy and
    is linked to other strategic plans and activities.

Amtrak’s President and CEO stated that management agreed with all of
our recommendations. He noted that Amtrak began to address some of our
recommendations in the recently published FY 2011 Fleet Strategy Plan and
would address the remaining recommendations in future strategy updates.
Management’s comments are responsive to our recommendations.


Ongoing Evaluations
During the next 6 months, the Office of Inspections and Evaluations will continue
to work on the following:

•	 A follow-up evaluation of Amtrak’s mechanical maintenance operations,
   examining progress made since our 2005 review, which recommended the
   adoption of Reliability-Centered Maintenance to improve effectiveness
   and efficiency.

•	 An evaluation, in response to a complaint, ascertaining whether Amtrak is
   following its policy that governs the assignment of individuals to temporary
   management positions. The complaint alleged that failure to follow the policy
   has resulted in disparate pay practices.


                         Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   35
page header




                                                                                                  Capitol Corridor at Niles, California




36   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                             Significant Activities | Investigations




Significant Activities:
investigations

During this reporting period, the Office of Investigations (OI) added two

new Deputy Inspectors General to assist in its work of combating alleged

fraud, waste, and abuse of Amtrak funds. Investigators opened 18 new

cases while closing 130; our hotline received 151 contacts by email, fax,

letter, telephone, or website. Our work resulted in two convictions and

one indictment.


Proactive Efforts Regarding Medical Leave of Absence
(08-141, December 8, 2010)
Cost savings of $126,670 realized
In conjunction with the Amtrak Health Services Department, OI conducted an
initiative involving employees on Medical Leave of Absence. The initiative was
designed to determine if employees were abusing this process and, if so, identify
those involved.

The project resulted in 63 employees returning to work, with a related cost
savings of $126,670. Amtrak also terminated the employment of 34 individuals.


Track Inspector Pleads Guilty
(09-002, December 22, 2010)
Restitution of $8,000 ordered
Our last semiannual report noted that a track inspector repeatedly used Amtrak’s
General Services Administration credit card to purchase fuel for his personal
vehicle. The track inspector also falsely reported that he performed track
inspections that he had, in fact, not done. At times the inspector was at home or
on personal travel when he claimed to be performing track inspections. He also
falsely claimed to have worked overtime in some of these instances.




                          Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   37
Significant Activities | Investigations




                                 The track inspector pled guilty to one count of theft of public money. He was
                                 sentenced to 6 weeks of home detention with electronic monitoring and 2 years’
                                 probation. He was ordered to make restitution in the amount of $8,000, and he
                                 resigned his employment with Amtrak.


                                 Health Care Facility Operator Indicted
                                 (07-026, March 3, 2011)
                                 Forfeiture of property valued at up to $291,255 ordered
                                 A Pennsylvania federal grand jury indicted the owner of a health care facility
                                 on 22 counts of health care fraud, 10 counts of mail fraud, and 11 counts of
                                 aggravated identity theft. The health care provider submitted hundreds of false
                                 claims to United Health Care Corporation, a medical management service that
                                 processes and pays claims for Amtrak-covered employees’ health care expenses.

                                 According to the indictment, the health care company owner employed
                                 unlicensed personnel, including an osteopathic physician and a physical
                                 therapist. The owner is charged with directing employees to prepare fraudulent
                                 physical therapy evaluations reflecting procedures that patients did not receive
                                 and on dates that patients were not at the facility. The owner also allegedly
                                 directed staff members to submit claims using health insurance identification
                                 numbers assigned to patients who did not receive the services. The fraudulent
                                 charges totaled $321,000 and the health care provider received $291,255,
                                 according to the indictment. A notice was served on the owner ordering
                                 forfeiture of any property that constitutes or is derived from the proceeds of the
                                 above actions, to the sum of $291,255.

                                 The case was investigated by Amtrak OIG along with the Department of Labor
                                 OIG, the U.S. Postal Inspection Service, and the Federal Bureau of Investigation.


                                 Closed-Circuit Television System Not Fully Functional
                                 (10-258, March 3, 2011)
                                 $20,576 in Upgraded Equipment Received
                                 OI conducted a proactive inquiry involving a contractual agreement with a
                                 vendor hired to install a closed-circuit television system at an Amtrak facility.
                                 OI determined that the vendor installed cameras that were not fully functional.
                                 OI worked with Amtrak Procurement to rectify the problem: the vendor agreed
                                 to provide Amtrak with upgraded closed-circuit television equipment valued at
                                 $20,576 at no additional cost.



38   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                              Significant Activities | Investigations




Billing from Health Care Provider Found to be Problematic
(09-888, March 22, 2011)
An OI review of invoices submitted by a health care provider revealed serious
problems with invoicing and billing practices. OI recommended that management
conduct regular reviews and reconciliations as well as random audits of invoices
received from the provider. Management concurred and agreed to ensure that
invoices are submitted in a manner that allows verification of labor hours
charged, that explanations are provided, and that billings are submitted on a
timely basis. Management also agreed to take steps to ensure that the provider’s
administrative functions are performed by appropriate-level personnel and are
not charged to Amtrak at higher principal employee rates.


Lead Service Attendant Sentenced
(04-91, March 24, 2011)
In 2006 an Amtrak lead service attendant was charged with one count of theft/
deception and one count of theft/unauthorized control of more than $300 and less
than $10,000. She failed to appear for her initial hearing at that time and a bench
warrant was issued for her arrest. She was finally arrested on October 6, 2010,
and pled guilty on October 10. She was sentenced to 1 year’s probation and time
served (67 days). She was also ordered to pay $500 in fines, costs, and fees.


Fraud Awareness Initiative
Together with the OIG Office of Audits, OI has initiated a comprehensive
effort to deliver fraud awareness briefings to Amtrak management, operations,
and support personnel. This training is designed to help Amtrak managers,
employees, and contractors recognize fraud indicators and report suspicions of
fraud to the OIG. The briefings are also designed to educate Amtrak management
on the role of the OIG and to foster a partnership between OIG and management.

To date, three presentations have been given to a total of 48 Amtrak Procurement
Service employees.

On March 17, 2011, OI presented the fraud awareness briefing to the Amtrak
Board of Directors.




                           Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   39
Significant Activities | Investigations




                                  Revenue Protection Unit

                                  In conjunction with mostly random on-board train observations of lead service
                                  attendants (LSAs), the OI Revenue Protection Unit (RPU) analyzed support
                                  documentation for on-board food and beverage sales for 49 trains. The completed
                                  reviews resulted in 11 administrative referrals to management for various findings
                                  including theft, fraud, and failure to follow procedures. Two LSAs have been
                                  disciplined and other management actions are pending.

                                  RPU has an ongoing program to educate Amtrak personnel on the mission
                                  of the RPU and the importance of adhering to internal controls to prevent
                                  loss of revenue from on-board ticket and food and beverage sales. RPU gave
                                  three presentations to a total of 36 employees, including newly hired assistant
                                  conductors.
The Office of Investigations’
Revenue Protection Unit
gave three presentations to
a total of 36 employees on
the importance of adhering
to internal controls to
prevent loss of revenue
from on-board ticket and
food and beverage sales.




                                                                                    MARC at Washington, D.C.

                                                                                                             Penn Station Control Center, New York

40    Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                   Significant Activities | Investigations




Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   41
Performance Measures




     FY 2010 Performance Measures,
     10/1/2010—3/31/2011

      Audit/Evaluation Results
      Congressional Testimony                                             0
      Reports Issued                                                      7
      Costs Questioned/Unsupported,
      Funds to be Put to Better Use                      a$36,902,776

      Management Decisions to Seek
      Recoveries                                                          0



      Investigative Results
      Financial Impact                                                            Investigative Workload
      Fines/Fees                                               $	     500         Investigations Opened                                               18
      Restitution                                              $	 8,000           Investigations Closed                                           b
                                                                                                                                                   130
      Cost Savings                                             $147,246


      Cases Opened
      Theft/Embezzlement                                                  4
      Time and Attendance Fraud                                           2       Hotline Contacts/Referrals
      Procurement Fraud                                                   1       Management                                                           57
      Procurement Irregularity                                            1       Customer Service                                                     53
      Proactive Reviews                                                   3       Amtrak Police Department                                              4
      Mismanagement                                                       1       OIG Audit                                                             3
      Kickbacks                                                           1       Other Agency                                                          2
      Health Care Fraud	                                                  1       Reviewed for Investigation                                            4
      Employee Misconduct                                                 1       Request for Assistance                                                7
      Conflict of Interest                                                1       No Action Warranted                                                  21
      Abuse of Position                                                   1       Total                                                               151
      False Statements                                                    1


      Judicial and Administrative Actions                                         Advisory Functions
      Indictments                                                         1       FOIA Requests Received                                                2
      Convictions                                                         2       FOIA Requests Processed                                               2
      Employee Removal                                                  35        Legislation Reviewed                                                  0
      Employee Suspensions                                                0       Regulations Reviewed                                                  0

     a 	Not included in this amount are the funds to be put to better use identified in Report E-11-02. Implementing the recommendations in this report
        would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet Strategy,
        resulting in a potential reduction of over $520 million in procurement and overhaul costs over the lives of these additional pieces of equipment.
     b 	At the beginning of the last semiannual reporting period, the office had an inventory of over 300 cases, many of which had sat dormant for years.
        Most addressed administrative matters more appropriately handled by Amtrak management.




42   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                  Appendix




Appendixes

Appendix 1

Office of Inspector General
Audit/Evaluation Reports Issued with Questioned Costs

                                        Reporting Period: 10/1/10–3/31/11

                                                         Number            Questioned Costs        Unsupported Costs
A.	 For which no management decision has been               2                  $21,108,181                 $	         0
    made by the commencement of the reporting
    period.
B.	 Reports issued during the reporting period.             2                       239,619                 1,037,862
Subtotals (A + B)                                           4                  $21,347,800                 $1,037,862


Less
C.	 For which a management decision was made                1
    during the reporting period.
   (i)	 dollar value of recommendations that were                                 1,055,662                           0
        agreed to by management.
   (ii)	dollar value of recommendations that were                                                                     0
        not agreed to by management.
D.	 For which no management decision has been               3                  $20,292,138                 $1,037,862
    made by the end of the reporting period.




                      Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   43
Appendix




     Appendix 2

     Office of Inspector General
     Audit/Evaluation Reports with Funds to be Put to Better Use

                                                     Reporting Period: 10/1/10–3/31/11

                                                                                                  Number                                Dollar Value
      A.	 For which no management decision has been                                                        0                   $	                 0
          made by the commencement of the reporting
          period.
      B.	 Reports issued during the reporting period.                                                      2                        a
                                                                                                                                        16,610,638

      Subtotals (A + B)                                                                                    2                    a
                                                                                                                                    $16,610,638


      Less
      C.	 For which a management decision was made
          during the reporting period.

          (i)	 dollar value of recommendations that were                                                   2                        a
                                                                                                                                        16,610,638
               agreed to by management.

          (ii)	dollar value of recommendations that were                                                   0                                      0
               not agreed to by management.
      D.	 For which no management decision has been                                                        0                   $	                 0
          made by the end of the reporting period.

     a 	Not included in this amount are the funds to be put to better use identified in Report E-11-02. Implementing the recommendations in that
      report would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet
      Strategy, resulting in a potential reduction of over $520 million in procurement and overhaul costs over the lives of these additional pieces
      of equipment.




44   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                                         Appendix


APPENDIX 3

OFFICE OF INSPECTOR GENERAL
DETAILED LISTING OF ALL ISSUED REPORTS

                                                   Reporting Period: 10/1/10–3/31/11

 Date              Report           Report Title                      Report               Questioned        Unsupported         Funds to be Put
 Issued            Number                                             Category                  Costs              Costs           to Better Use
 12/02/2010        508-2009        Questionable Contract              Acquisition &         $          0         $          0      $                0
                                   Language Related to                Procurement
                                   Interest Payable Under
                                   Kiewit Contract C069-
                                   93228 / Sounder Preventive
                                   Maintenance Track
                                   Replacement and Related
                                   Improvements, Seattle, WA
                                   / and Kiewit Contract C069-
                                   06834 South End Track
                                   and Related Improvements,
                                   Seattle, WA
 12/13/2010        503-2009        Incurred-Cost Audit:               Acquisition &              17,694              908,582                        0
                                   Amtrak’s Design/Build              Procurement
                                   Improvements Contract
                                   Audit Identified a Total of
                                   $926,276 in Questioned
                                   and Unsupported Costs
 12/22/2010        504-2009        Incurred-Cost Audit:               Acquisition &             221,925              129,280                        0
                                   Amtrak’s Track Replacement         Procurement
                                   and Related Improvements
                                   Contracts Audit Identified
                                   a Total of $351,205
                                   in Questioned and
                                   Unsupported Costs
 01/12/2011        219-2010        Price-Proposal Audit: Amtrak       Acquisition &                    0                    0          16,610,638
                                   Should Negotiate a Price           Procurement
                                   Adjustment to a Major
                                   Acquisition Contract
 01/14/2011        105-2010        Strategic Asset Management         Information                      0                    0                       0
                                   Program Controls Design            Technology
                                   Is Generally Sound, But
                                   Improvements Can Be Made
 03/15/2011        E-11-01         Operation RedBlock: Actions        Human Capital                    0                    0                       0
                                   Needed to Improve Program          Management
                                   Effectiveness
 03/31/2011        E-11-02a        Evaluation of Amtrak’s FY          Train                            0                    0                       0
                                   2010 Fleet Strategy: A             Operations
                                   Commendable High-Level             & Business
                                   Plan That Needs Deeper             Management
                                   Analysis and Planning
                                   Integration
 Total                                                                                      $239,619          $1,037,862          $16,610,638
                                                                                                                                         (continued)

a 	Implementing the recommendations in Report E-11-02 would allow Amtrak to reduce its fleet requirements by 53 cars and 25 locomotives
 over the 30-year planning period in Amtrak’s Fleet Strategy, resulting in a potential reduction of over $520 million in procurement and overhaul
 costs over the lives of these additional pieces of equipment.


                            Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011                        45
Appendix




     APPENDIX 3        (continued)


     OFFICE OF INSPECTOR GENERAL
     DETAILED LISTING OF ALL ISSUED REPORTS

                                                     Reporting Period: 10/1/10–3/31/11


      Audits/Evaluations
      In process at 10/1/2010:                                                                    65
      Postponed or canceled:                                                                  b
                                                                                               40
      Started:                                                                                    8
      Issued:                                                                                     7
      In process at 03/31/2011:                                                                26


     b Audits canceled (40) in response to findings and recommendations in the most recent peer
      review, to ensure that all audits were being conducted in accordance with generally accepted
      government auditing standards.




46   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                          Appendix




Appendix 4

Office of Inspector General
EVALUATION REPORTS ISSUED WITH FINAL MANAGEMENT ACTION PENDING CONTAINING ESTIMATED
YEARLY COST SAVINGS a (FUNDS TO BE PUT TO BETTER USE)

                                                Reporting Period: 10/1/10–3/31/11

 Recommendations made or carried forward in this reporting period

 Source of savingsb                                   Report Number/Date           Estimated Annual       Estimated Annual
                                                                                            Savings         Savings Already
                                                                                                                  Achieved
 Reliability-Centered Maintenance                     cE-05-04/                        $100 million+            $30 million	
                                                      September 6, 2005
 Increased productivity and utilization of            E-06-02/                            28 million+              4 million	
 rolling stock fleet                                  April 6, 2006
 Consolidation of mechanical maintenance              E-06-03/April 24, 2006              25 million+              4 million+
 operations into “centers of excellence” at
 fewer locations
 Improved efficiency of human resource                E-09-03/May 15, 2009                23 million+
 processes through leveraging of new
 technology
 Achievement of “State of Good Repair”                E-09-05/                            50 million+
 of Amtrak infrastructure and adoption of             September 29, 2009
 European railroads’ infrastructure best
 practices
 Improved efficiency of training                      E-09-06/October 26, 2009              8 million	
 Total                                                                                 $234 million+            $38 million+

a 	Estimated savings based on benchmarking to other organizations
b 	Abbreviated description; see report for full explanation
c 	Follow-up evaluation underway




                            Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   47
Appendix




     Appendix 5

     Office of Inspector General
     Review of Legislation and Regulations

                                             Reporting Period: 10/1/10–3/31/11

     Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review
     existing and proposed legislation and regulations relating to programs and operations of such establishment and to
     make recommendations in the semiannual reports…concerning the impact of such legislation or regulations on the
     economy and efficiency in the administration of such programs and operations administered or financed by such
     establishment or the prevention and detection of fraud and abuse in such programs and operations.

     Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend
     policies for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal
     agencies, State and local governmental agencies, and nongovernmental entities with respect to (A) all matters
     relating to the promotion of economy and efficiency in the administration of, or the prevention and detection
     of fraud and abuse in, programs and operations administered or financed by such establishment, or (B) the
     identification and prosecution of participants in such fraud or abuse.”

     During this reporting period, we reviewed no legislation or regulations.




48   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                                                                                                    Glossary




Glossary of Audit Terms and Abbreviations
The terms the OIG uses in reporting audit statistics are defined below:
Questioned Cost – Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
alleged violation of Amtrak’s corporate policy or procedure.
Unsupported Cost – Cost that is not supported by adequate documentation at the time of the audit.
Funds to Be Put to Better Use – Funds identified in an audit that could be used more effectively by taking greater
efficiency measures.
Management Decision – Management’s evaluation of the OIG audit finding and its final decision concerning
agreement or non-agreement with the OIG recommendation.

Abbreviations/acronyms used in the text are defined below:
                                              ARRA         American Recovery and Reinvestment Act of 2009
                                              BNSF         Burlington Northern Santa Fe Railway Co.
                                                CEO        chief executive officer
                                                CFO        chief financial officer
                                              CIGIE        Council of the Inspectors General on Integrity and Efficiency
                                                D.C.       District of Columbia
                                                EAP        Employee Assistance Program
                                                ESC        Executive Steering Committee
                                            FBPTBU         funds to be put to better use
                                                FRA        Federal Railroad Administration
                                                 FY        fiscal year
                                             GAGAS         generally accepted government auditing standard
                                                GAO        Government Accountability Office
                                                GSA        General Services Administration
                                                  IG       Inspector General
                                                LSA        lead service attendant
                                              NAPA         National Academy of Public Administration
                                                NEC        Northeast Corridor
                                                  OI       Office of Investigations
                                                OIG        Office of Inspector General
                                               OMB         Office of Management and Budget
                                                OTP        on-time performance
                                                P.L.       Public Law
                                              PRIIA        Passenger Rail Investment and Improvement Act
                                               R&R         repair and return
                                               RCM         reliability-centered maintenance
                                               RPU         Revenue Protection Unit
                                               SAM         strategic asset management
                                              SIGIR        Special Inspector General for Iraq Reconstruction
                                              U.S.C.       United States Code
                                              USPS         United States Postal Service
                                                 WA        Washington

                       Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   49
     Reporting Requirements




      Reporting Requirements Index

      INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
      AMENDMENTS OF 1988 (P.L. 100-504)


        Topic/Section       Reporting Requirement                                                                         Page
            4(a)(2)         Review of Legislation and Regulations                                                           48

            5(a)(1)         Significant Problems, Abuses, and Deficiencies                                  25-28, 31-35, 37-40

                            Recommendations for Corrective Action to Significant
            5(a)(2)                                                                                         24-25, 27-28, 32-35
                            Problems
                            Previous Reports’ Recommendations for Which Corrective
            5(a)(3)                                                                                                         n/a
                            Action Has Not Been Completed

            5(a)(4)         Matters Referred to Prosecutive Authorities                                                     n/a

            5(a)(5)         Information Assistance Refused or Not Provided                                                  n/a

            5(a)(6)         Audit Reports Issued in This Reporting Period                                                   45

            5(a)(7)         Summary of Significant Reports                                                                  45

            5(a)(8)         Audit Reports with Questioned Costs                                                25-26, 43, 45-46

                            Audit Reports with Recommendations That Funds Be Put
            5(a)(9)                                                                                                     44, 47
                            To Better Use
                            Previous Audit Reports Issued with No Management
            5(a)(10)                                                                                                        n/a
                            Decision Made by End of This Reporting Period

            5(a)(11)        Significant Revised Management Decisions                                                        n/a

                            Significant Management Decisions with Which the OIG is
            5(a)(12)                                                                                                        n/a
                            in Disagreement




50   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
                                           Top, Union Station, Washington, D.C.

                      Bottom, East meets West as staff from Washington confer
                                   with L.A. staff at Union Station, Los Angeles




Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011   51
                Stop Waste, Fraud, Abuse,
                and Mismanagement!
                Who pays? You pay.
                Act like it’s your money…because it is.
                Tell Us About It
                Are you aware of waste, fraud, abuse, or mismanagement at Amtrak? Amtrak’s
                Office of Inspector General (OIG) has a toll-free Hotline number that you can call,
                even if you’re not certain that what you suspect falls into one of these categories.
                If you’d prefer to write to us, that’s fine, too.

                The OIG will keep your identity confidential. You may remain anonymous if you
                so choose. You are protected by law from reprisal by your employer.



                Call the Amtrak OIG Hotline
                Nationwide: (800) 468-5469


                Write to us
                Office of Inspector General
                P.O. Box 76654
                Washington, D.C. 20013-6654

                Visit us online
                www.amtrakoig.gov




52   Amtrak Office of Inspector General I Semiannual Report to Congress I October 1, 2010– March 31, 2011
www.amtrakoig.gov
                                            National Railroad Passenger Corporation
                                                    Office of Inspector General
                                   10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                                                        www.amtrakoig.gov

54   Amtrak Office of Inspector General
                                  AmtrakI isSemiannual
                                             a registeredReport
                                                          servicetomark
                                                                    Congress   I October
                                                                        of the National  1, 2010–
                                                                                        Railroad   March 31,
                                                                                                 Passenger   2011
                                                                                                           Corporation
